Dix

me

PRINCE LAW GROUP

 

October 20, 2020

Via E-Mail (igray@supremecourt.gov)
and U.S. Postal Service Priority Mail
Scott S. Harris - Clerk

Supreme Court of the United States

1 First Street, NE

Washington, DC 20543

Re: Liberty Mutual Fire Ins. Co. v. Volungis, et al.
Case No. 20-208

Dear Mr. Harris,

Thank you for your letter dated October 13, 2020 informing our office of the
Court’s request for Respondents to file a response to the petition for writ of certiorari.
For the reasons set forth below, Respondents hereby respectfully move to extend the
time to file their brief in opposition to the petition for writ of certiorari by sixty (60)
days, up to and including Monday, January 11, 2021. Pursuant to Rule 30.4, a motion
to extend the time to file a brief in opposition “may be presented in the form of a letter
to the Clerk” because this document is not specified in subsection 3 of Rule 30. This
is Respondents’ first request for an extension.

Respondents respectfully request this extension of time for several reasons.
Respondents’ attorneys are now finalizing their respective applications for admission
to practice for submission after some unforeseen delays arose with securing sponsors
for counsel’s respective applications. Additionally, counsel has two (2) briefs due to
the Nevada Supreme Court in separate matters. Counsel must file a reply brief to
the Nevada Supreme Court in the matter of Evans-Waiau et al. v. Tate, Case No.
79424 on or before November 4, 2020. Counsel must also file an answering brief to
the Nevada Supreme Court in the matter of Capriati Construction Corp., Inc. v.
Yahyavi, Case Nos. 80107/80821 on or before November 11, 2020.

10801 W. Charleston Boulevard, Suite 560, Las Vegas, Nevada 89135
T: 702.534.7600 | F: 702.534.7601
www.thedplg.com
Scott S. Harris
October 20, 2020
Page 2 of 2

While the issue presented by the petition for writ of certiorari appears to be
narrow in scope, this fact, standing alone, does not alter the detailed analysis and
research required for Respondents to comprehensively address the issue.
Specifically, Respondents are tasked to not only survey each Circuit’s respective
interpretation of FRCP 15, but also the underlying rationale that supports those
interpretations. The issue presented also implicates other aspects of a district court’s
inherent and discretionary powers that Respondents must address. This will ensure
the Court is positioned to fully and fairly evaluate the issue presented. As this will
be counsel’s first time filing a brief to the Court, an extension of time will also make
certain counsel accurately and fully complies with the specific submission
requirements set forth by the Court’s Rules.

Based on the foregoing, Respondents respectfully request a sixty (60) day
extension of time to file their brief in opposition. This request is made in good faith
and not for the purpose of undue delay in the resolution of this matter.

Sincerely,

PRINCE LAW GROUP

7 Prijke
Kevin T. Strong

cc: Theodore J. Boutrous, Jr.
(via e-mail tboutrous@gibsondunn.com)
(via First-Class Mail)
Gibson, Dunn & Crutcher LLP
333 S. Grand Avenue
Los Angeles, California 90071
